           Evaluation Report




Supplemental Security Income High-
   error Profile Redeterminations




      A-07-12-11263 | September 2013
MEMORANDUM


Date:      September 30, 2013                                                 Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Supplemental Security Income High-error Profile Redeterminations (A-07-12-11263)

           The attached final report presents the results of our review. Our objective was to determine
           whether the Social Security Administration was effectively completing Supplemental Security
           Income high-error profile redeterminations.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Supplemental Security Income High-error Profile
Redeterminations
A-07-12-11263
September 2013                                                            Office of Audit Report Summary

Objective                        Our Findings

To determine whether the         Each year, SSA identifies the number of Profile C redeterminations it will
Social Security                  complete based on the dedicated program integrity funding it expects to
Administration (SSA) was         receive in its budget appropriation. Since SSA is uncertain of this amount at
effectively completing           the beginning of the year when it selects Profile C redeterminations, SSA
Supplemental Security            intentionally selects more Profile C redeterminations than it plans to
Income (SSI) high-error          complete. SSA’s method for assigning redeterminations as Profile C is based
profile (HEP)                    on the anticipated dedicated program integrity funding and the amount SSA
redeterminations.                allocates to redeterminations to achieve the agency performance targets set
                                 by the Office of Management and Budget and Congress. Therefore, when
Background                       actual dedicated program integrity funding is at or lower than expected, some
                                 Profile C redeterminations selected are not completed. For example, in
SSA has measures to help         FY 2011, the dedicated program integrity funding SSA received resulted in
identify SSI recipients who      the Agency not completing up to 201,000 Profile C redeterminations
have excess income and/or        selected.
resources, such as
periodically conducting          While SSA is required to spend the dedicated program integrity funding on
redeterminations to determine    program integrity workloads, SSA has the authority to use additional funds
whether recipients are still     for program integrity. If SSA had received additional dedicated program
eligible for, and receiving,     integrity funding or used funding beyond the amount dedicated for program
the correct SSI payments.        integrity, it could have completed more of these 201,000 Profile C
SSA conducts unscheduled         redeterminations in FY 2011. If SSA completed all 201,000 Profile C
redeterminations based on a      redeterminations, we estimate that it would have identified at least
recipient or couple’s reported   $228.5 million in additional improper payments, both overpayments and
changes in circumstances that    underpayments. However, using funds beyond the amount dedicated for
may affect eligibility and       program integrity would have resulted in reductions in SSA’s other
payment amount. SSA              workloads, such as processing initial claims.
selects automated
redeterminations based on        Our Recommendation
specific case characteristics.
SSA identifies discretionary     We recommend that SSA continue increasing the number of Profile C
redeterminations each            redeterminations completed each year as resources allow.
September when it runs an
error profiling system that      SSA responded that program integrity work, including Profile C
identifies the expected          redeterminations, is a priority for the Agency. SSA indicated that the
amount of SSI overpayment.       availability of increased dedicated funding is critical to implementing our
Recipients with the highest      recommendation. SSA stated that it would continue to devote resources to
risk of likely overpayment       handle incoming work while maintaining program integrity commitments.
are coded as Profile C.          SSA considers this recommendation closed for tracking purposes. We do not
Profile C redeterminations       agree with closing the recommendation prematurely. Rather, we encourage
efficiently identify             the Agency to evaluate whether resources above the dedicated program
overpayments.                    integrity funding could be used to complete additional program integrity
                                 activities, such as Profile C redeterminations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Selection of Profile C High-error Profile Redeterminations......................................................4
     Release of Profile C High-error Profile Redeterminations ........................................................5
Conclusions ......................................................................................................................................5
Recommendation .............................................................................................................................6
Agency Comments ...........................................................................................................................6
OIG Response ..................................................................................................................................6
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Redetermination Profiles and Priorities .............................................................. B-1
Appendix C – Fiscal Year 2011 Improper Payments ................................................................. C-1
Appendix D – Improper Payments from Completing Additional Profile C Redeterminations.. D-1
Appendix E – Agency Comments ...............................................................................................E-1
Appendix F – Major Contributors............................................................................................... F-1




SSI High-error Profile Redeterminations (A-07-12-11263)
ABBREVIATIONS
Act                  Social Security Act

C.F.R.               Code of Federal Regulations

FY                   Fiscal Year

HEP                  High-Error Profile

LEP                  Low-Error Profile

MEP                  Middle-Error Profile

OIG                  Office of the Inspector General

OMB                  Office of Management and Budget

OQP                  Office of Quality Performance

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code




SSI High-error Profile Redeterminations (A-07-12-11263)
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) was
effectively completing Supplemental Security Income (SSI) high-error profile (HEP)
redeterminations.

BACKGROUND
SSI is a Federal cash assistance program administered by SSA that provides a minimum level of
income, subject to certain qualifications, to financially needy individuals who are aged, blind, or
disabled. 1 No individual shall be considered eligible for SSI payments for any period during
which he/she has income or resources that exceed the allowable limits established under the
Social Security Act (Act). 2 SSI recipients are required to report events and changes in
circumstances that may affect their eligibility and payment amounts, including changes in
income, resources, and living arrangements. 3

SSA has measures to help identify SSI recipients who have excess income and/or resources, such
as periodically conducting redeterminations to determine whether recipients are still eligible for
SSI and are receiving the correct payments. A redetermination is a review of a recipient’s non-
medical eligibility factors, such as income, resources, and living arrangements. 4
Redeterminations are highly effective in identifying and correcting over- and underpayments to
SSI recipients.

Based on the dedicated program integrity funding SSA expects to receive in its budget
appropriation, SSA determines how many redeterminations to conduct during the fiscal year
(FY). 5 First, SSA estimates the number of unscheduled and automated redeterminations it will
conduct during the year.

•     Unscheduled redeterminations are conducted based on a recipient or couple’s reported
      changes in circumstances that may affect eligibility and/or payment amount. 6




1
    Act § 1601, 42 U.S.C. § 1381, 20 C.F.R. § 416.110.
2
    Act § 1611(a); 42 U.S.C. § 1382(a). See 20 C.F.R. § 416.202.
3
 20 C.F.R. §§ 416.701 and 416.708; see also Act § 1631(e)(1), 42 U.S.C. § 1383(e)(1) sets forth the Commissioner
of Social Security’s responsibility to prescribe requirements regarding reporting events and changes in
circumstances, as may be necessary for effective and efficient administration of the SSI program.
4
    Act § 1611(c)(1), 42 U.S.C. § 1382(c)(1), 20 C.F.R. § 416.204; SSA, POMS, SI 02305.001 A (October 4, 2007).
5
 SSA’s annual budget appropriation includes dedicated program integrity funding that SSA can only spend on
program integrity workloads, such as redeterminations and continuing disability reviews. However, SSA has the
authority to spend more than this dedicated amount on program integrity workloads.
6
    SSA, POMS, SI 02305.001 B.2 (October 4, 2007).



SSI High-error Profile Redeterminations (A-07-12-11263)                                                            1
•      Automated redeterminations are selected based on specific case characteristics and are
       categorized as HEP, middle-error (MEP), or low-error (LEP) profile depending on the
       likelihood of an error. 7 The most common types of automated redeterminations are
       conducted on recipients

               o awarded SSI in the previous 3 months who have never been redetermined and live
                 in another’s household (Profile 1 HEP redeterminations),

               o upon turning age 18 (Profile K MEP redeterminations), and

               o eligible for Medicaid while working (Profile W MEP redeterminations).

Once SSA estimates the numbers of unscheduled and automated redeterminations, it calculates
the targeted number of discretionary redeterminations it will select. SSA identifies discretionary
redeterminations each September when it runs an error profiling system that identifies the
expected amount of the SSI overpayment. The system assigns each recipient a score based on
the estimated amount of the overpayment. 8 Based on the assigned score, recipients are ranked
from highest to lowest risk of likely overpayment. 9

Next, SSA identifies the number of Profile C redeterminations it expects to complete, given the
program integrity funding it expects to receive in its budget appropriation, and establishes a
cut-off score. Ranked recipients who have a score above the cutoff, those with the highest risk
of receiving an overpayment, are assigned a Profile C HEP redetermination. Recipients with a
score below the cutoff are assigned a Profile A LEP redetermination. 10

The number of redeterminations SSA completes each year is based on the actual dedicated
program integrity funding SSA receives in its budget appropriation and the amount allocated to
redeterminations to achieve the agency performance targets set by the Office of Management and
Budget (OMB) and Congress. Likewise, the types of redeterminations completed each year
vary. For example, in FY 2008, SSA completed almost 900,000 redeterminations, 11 of which
about 43 percent was Profile C redeterminations. However, beginning in FY 2008, SSA
requested additional funding to enable it to process more redeterminations. 12 As such, in


7
    SSA, POMS, SI 02305.013 A.1.b and B (June 14, 2010).
8
    SSA, POMS, SI 02305.013 A.1.a (June 14, 2010).
9
    SSA, POMS, SI 02305.013 (June 14, 2010).
10
  SSA’s policy also includes Profile B MEP redeterminations as being identified through the error profiling system.
SSA, POMS, SI 02305.013 (June 14, 2010). Profile B was established to support a redetermination mailer process
that was piloted but discontinued after SSA determined it was not cost-effective. See Appendix B, Table B–1 for a
description of all profile codes and categories.
11
  This does not include limited issue cases, which SSA often includes in redetermination counts. Limited issue
cases require the development of a specific issue or event but do not require a redetermination. SSA, POMS,
SI 02305.015 A.1 (October 14, 2011).
12
     SSA, FY 2008 Justification of Estimates for Appropriations Committee, page 40.



SSI High-error Profile Redeterminations (A-07-12-11263)                                                           2
FY 2011, SSA completed over 2.2 million redeterminations, of which over 61 percent was
Profile C redeterminations.

Profile C redeterminations efficiently identify overpayments. Specifically, almost $2.2 billion
(73 percent) of the estimated $3 billion in overpayments identified through redeterminations in
FY 2011 were through Profile C redeterminations. As such, SSA has required that field offices
give Profile C redeterminations higher priority than most other types of redeterminations. 13
Profile C redeterminations also identify and correct underpayments. In FY 2011, approximately
$392 million (30 percent) of the $1.3 billion in underpayments identified through
redeterminations was identified through Profile C redeterminations. 14

RESULTS OF REVIEW
Each year, SSA identifies the number of Profile C redeterminations it will complete based on the
dedicated program integrity funding it expects to receive in its budget appropriation. Since SSA
is uncertain of this amount at the beginning of the year when it selects Profile C
redeterminations, SSA intentionally selects more Profile C redeterminations than it plans to
complete. SSA’s method for assigning redeterminations as Profile C is based entirely on the
anticipated dedicated program integrity funding and the amount SSA allocates to
redeterminations to achieve the agency performance targets set by OMB and Congress.
Therefore, when actual dedicated program integrity funding is at or lower than the amount
expected, some Profile C redeterminations selected are not completed. For example, in FY 2011,
the dedicated program integrity funding SSA received resulted in the Agency not completing up
to 201,000 of the Profile C redeterminations selected.

While SSA is required to spend the dedicated program integrity funding on program integrity
workloads, SSA has the authority to use additional funds for program integrity. Had SSA
received additional dedicated program integrity funding or used funding beyond the amount
dedicated for program integrity, it could have completed more of these 201,000 Profile C
redeterminations in FY 2011. Had SSA completed all 201,000 Profile C redeterminations, we
estimate that it would have identified at least $228.5 million in additional improper payments,
both overpayments and underpayments. 15 However, using funds beyond the amount dedicated
for program integrity would have resulted in reductions in SSA’s other workloads, such as
processing initial claims.




13
  SSA, POMS, SI 02305.017 E. (October 24, 2011; October 30, 2008). Also see AM-11135 C. (October 11, 2011).
See Appendix B, Table B–2 for the priority assigned to redeterminations by SSA policy.
14
     See Appendix C for the average over- and underpayment identified by each type of redetermination in FY 2011.
15
     See Appendix A for the scope and methodology of our review.



SSI High-error Profile Redeterminations (A-07-12-11263)                                                             3
Selection of Profile C High-error Profile Redeterminations
SSA selected more Profile C redeterminations through its error profiling system than it intended
to complete each FY. This occurred for a variety of reasons. According to SSA, the largest
driver is budget uncertainty, which is not resolved until SSA has an appropriation for the year.
Therefore, SSA selects more Profile C redeterminations to provide needed flexibility. It is most
efficient for SSA to input potential redeterminations into its systems at the beginning of the year.
Therefore, SSA ensures an adequate supply of Profile C redeterminations if the overall
redetermination target becomes significantly higher when SSA receives its appropriation. Aside
from budget uncertainty, SSA needs flexibility because some redeterminations cannot be
completed if the recipients die or stop receiving SSI payments. Also, SSA ensures each region
and field office has enough redeterminations to achieve its overall targets.

For these reasons, SSA identifies the number of Profile C redeterminations it expects to complete
given anticipated dedicated program integrity funding plus an additional 10 to 20 percent. SSA’s
error profiling system assigns each recipient a score based on the estimated amount of
overpayment. However, SSA’s method for assigning redeterminations as Profile C is based on
the dedicated program integrity funding it expects to receive in its budget appropriation and the
amount SSA allocates to redeterminations to achieve the agency performance targets set by
OMB and Congress. Therefore, when actual dedicated program integrity funding is at or lower
than the amount expected, some Profile C redeterminations selected are not completed. For
example, in FY 2011, SSA did not complete almost 201,000 of the Profile C redeterminations
selected, despite increasing the number of Profile C redeterminations completed since FY 2008
by 250 percent (see Table 1).

                               Table 1: Profile C Redeterminations
                                       Number              Number      Number Not
                        FY
                                       Selected           Completed    Completed
                       2008              614,181            384,088      230,093
                       2009              917,790            667,615      250,175
                       2010           1,551,158            1,322,500     228,658
                       2011           1,561,529            1,360,682     200,847

In FY 2011, had SSA completed approximately 201,000 additional Profile C redeterminations,
we estimate it could have identified at least $170.7 million in additional overpayments and
approximately $57.8 million in additional underpayments, for total additional improper payments
of at least $228.5 million (see Appendix D). We calculated the $170.7 million in additional
overpayments using SSA’s estimate that the additional 201,000 Profile C redeterminations would
have resulted in an average overpayment of $850. We calculated the $57.8 million in additional
underpayments assuming the average underpayment for the additional 201,000 Profile C
redeterminations would remain consistent with the $288 average identified for the first
1.4 million Profile C redeterminations completed (see Appendix C) since SSA would not have
expected a significant difference in the average underpayment.

SSI High-error Profile Redeterminations (A-07-12-11263)                                            4
We acknowledge that some Profile C redeterminations cannot be completed if, for example, the
recipient dies or does not cooperate. However, even if SSA were able to complete only half of
the additional 201,000 Profile C redeterminations, it could still identify at least $114.3 million in
additional improper payments. 16

Release of Profile C High-error Profile Redeterminations
According to SSA, Profile C redeterminations are released for completion based on the expected
SSI overpayment that can be detected and prevented. According to SSA, this approach ensures
that regardless of resources available in a given year, SSA will work the most productive and
cost-effective Profile C redeterminations to maximize the expected return on investment.
However, one reason SSA provided for not completing some Profile C redeterminations was that
redeterminations were released to field offices based on the recipient’s location. As such, some
field offices receive a higher proportion of Profile C redeterminations compared to other types of
redeterminations. Therefore, offices with larger proportions of Profile C redeterminations may
not have the resources to complete all the Profile C redeterminations they receive.

Upon request, field offices have distributed redeterminations among offices. Since SSA prefers
to conduct Profile C redeterminations by telephone, it should not require additional resources for
field offices to complete Profile C redeterminations for SSI recipients in another geographical
location. 17 By doing so, SSA could ensure the most productive and cost-effective
redeterminations are completed and enable field offices to complete more Profile C
redeterminations.

CONCLUSIONS
From FYs 2008 to 2011, SSA increased the number of Profile C redeterminations completed by
250 percent. We commend SSA for focusing more attention to this important program integrity
workload. We also understand that increasing the number of Profile C redeterminations depends
on the dedicated program integrity funding SSA receives in its annual appropriation and the need
to balance other important workloads. If SSA had the funding necessary to complete an
additional 201,000 Profile C redeterminations in FY 2011, we estimate it could have identified at
least $228.5 million in additional improper payments.




16
  Completing approximately 201,000 additional Profile C redeterminations would have cost an additional
$34 million. The average cost to complete a redetermination was $169.45 in FY 2011. We assumed this cost would
have remained consistent for the additional 200,847 Profile C redeterminations.
17
  In FY 2011, field offices used telephones to conduct approximately 47 percent of Profile C redeterminations, and
the remainder was conducted in person.



SSI High-error Profile Redeterminations (A-07-12-11263)                                                              5
RECOMMENDATION
We recommend that SSA continue increasing the number of Profile C redeterminations
completed each year as resources allow.

AGENCY COMMENTS
SSA responded that program integrity work, including Profile C redeterminations, is a priority
for the Agency. SSA indicated that the availability of increased dedicated funding is critical to
implementing our recommendation. SSA stated that it would continue to devote resources to
handle incoming work while maintaining program integrity commitments. SSA considers this
recommendation closed for tracking purposes. See Appendix E for the full text of the Agency’s
comments.

OIG RESPONSE
Although the Agency considers this recommendation closed for tracking purposes, we do not
agree with closing the recommendation prematurely. Rather, we encourage the Agency to
evaluate whether resources above the dedicated program integrity funding could be used to
complete additional program integrity activities, such as Profile C redeterminations.




SSI High-error Profile Redeterminations (A-07-12-11263)                                             6
                                       APPENDICES




SSI High-error Profile Redeterminations (A-07-12-11263)
Appendix A – SCOPE AND METHODOLOGY
To complete the objectives of our review, we:

•   Reviewed applicable laws, regulations, and sections of the Program Operations Manual
    System related to Supplemental Security Income redeterminations.

•   Reviewed the Social Security Administration (SSA) Office of Quality Performance’s (OQP)
    Supplemental Security Income Redeterminations Change Rate Study for Fiscal Years (FY)
    2008 through 2011 to obtain the numbers of redeterminations completed, average
    overpayment, and average underpayment by redetermination profile.

•   Interviewed individuals from SSA’s OQP, Office of Operations, and Office of Systems to
    obtain information about SSA’s processes for profiling, selecting, releasing, and completing
    redeterminations.

•   Obtained a data extract from the Supplemental Security Record of redeterminations
    completed in FY 2011.

•   Calculated the amount of improper payments SSA could identify by completing all Profile C
    redeterminations selected (see Appendix D).

Our work was conducted at the Office of Audit in Kansas City, Missouri, from December 2011
through February 2013. We determined the data used for this review were sufficiently reliable to
meet our objective. The entities reviewed were OQP and the Office of Operations. We
conducted our review in accordance with the Council of the Inspectors General on Integrity and
Efficiency’s Quality Standards for Inspection and Evaluation.




SSI High-error Profile Redeterminations (A-07-12-11263)                                       A-1
Appendix B – REDETERMINATION PROFILES AND
             PRIORITIES
The Social Security Administration (SSA) assigns redeterminations a profile code based on the
circumstances that triggered the redeterminations, such as a specific event or selection by an
error profiling computer program. Redeterminations are then categorized as high-, middle-, or
low-error profile (HEP, MEP, or LEP) depending on the likelihood of error (see Table B–1).

                       Table B–1: Redetermination Profile Code Descriptions
Profile Code                                              Description 1
                                                      HEP
                   Redetermination on a recently awarded case (within 3 months) involving a recipient who
         1
                   has never been redetermined and is living in another’s household.
        C          Profiled as high-error based on error score assigned by computer program.
                   Recipient’s Supplemental Security Record has reached maximum entries so the Record
        E
                   must be terminated using the Terminated Record Balancing and Debt Transfer procedure.
                   Recipient’s Supplemental Security Record has reached maximum entries, but the Record
        M          cannot be terminated using the Terminated Record Balancing and Debt Transfer
                   procedure.
         S         Recipient part of Martinez court case settlement.
                                                       MEP
            2
        B          Profiled as middle-error based on error score assigned by computer program.
        K3         Critical birthday age 18.
        O          Redetermination pending 24 months or more.
        V          Disabled or blind children overseas.
        W          Recipients eligible for Medicaid while working, referred to as 1619(b) cases.
                                                        LEP
        A          Profiled as low-error based on error score assigned by computer program.

Once SSA selects redeterminations, it releases them to field offices for processing based on the
recipient’s location. SSA policy provides the priority field offices should give redeterminations



1
    SSA, POMS, SI 02305.013 (June 14, 2010).
2
 SSA no longer selects Profile B redeterminations, which were categorized as MEP. Profile B was established in
support of a redetermination mailer process that was piloted but discontinued after SSA determined the process was
not cost effective.
3
 Profile K redeterminations are required by the Social Security Act (Act) § 1614(a)(3)(H)(iii), 42 U.S.C.
§ 1382c(a)(3)(H)(iii).



SSI High-error Profile Redeterminations (A-07-12-11263)                                                        B-1
for processing (see Table B–2). 4 The priority is based on the type of redeterminations as well as
the presence of priority diaries. Examples of situations creating priority diaries include the
following.

•     Recipient appears to have unemployment compensation.
•     Recipient appears to have State wages.
•     Recipient is within 4 quarters of being eligible for Title II retirement benefits.
•     Recipient was admitted to a medical facility according to the Centers for Medicare and
      Medicaid Services.
•     Recipient has been removed from the United States according to the Department of
      Homeland Security.

                              Table B–2: Redetermination Priority Order
               Order                           Description (see Table B–1)
                 1.          Profile C redeterminations with priority diaries
                 2.          Limited issues with priority diaries 5
                 3.          Profile E and M redeterminations
                 4.          Profile K redeterminations
                 5.          Profile C redeterminations without priority diaries
                 6.          Profile 1, B, and W redeterminations with priority diaries
                 7.          Profile A redeterminations with priority diaries
                 8.          Limited issues without priority diaries
                 9.          1619(a) cases with special action code A 6
                             Profile 1 and Profile W redeterminations without priority
                10.
                             diaries
                11.          Profile A and B redeterminations without priority diaries




4
    SSA, POMS, SI 02305.017 E. (October 24, 2011).
5
 Limited issue cases require the development of a specific issue or event but do not require a redetermination. SSA,
POMS, SI 02305.015 A.1. (October 14, 2011). During FY 2011, limited issues with priority diaries received a
higher priority than Profile C redeterminations with priority diaries. SSA, POMS, 023015.017 E.2 (October 30,
2008).
6
 Under § 1619(a) of the Act, 42 U.S.C. § 1382h(a), an individual receiving SSI based on disability may qualify for
continuing cash payments even when earnings exceed amounts designated by the Commissioner.



SSI High-error Profile Redeterminations (A-07-12-11263)                                                         B-2
Appendix C – FISCAL YEAR 2011 IMPROPER PAYMENTS1
In Fiscal Year (FY) 2011, the Social Security Administration (SSA) completed almost
2.5 million redeterminations and limited issues. 2 As a result, SSA estimated over $3.2 billion in
overpayment prevention and recoveries would accrue, along with underpayments of
approximately $1.4 billion. Therefore, SSA estimated that redeterminations and limited issues
result in an average overpayment of $1,317 and an average underpayment of $571 (see
Table C–1).

         Table C–1: Improper Payments from Redeterminations Completed in FY 2011
               Profile Code                                        Average                    Average
                                         Number Completed
             (See Table B–2)                                    Overpayment                 Underpayment
                                         Category: High-Error Profile
                     C                         1,360,682              $1,614                      $288
                     M                             3,555              $1,685                      $469
                     E                             1,307              $1,595                      $378
                     1                            93,025                $610                      $698
                     S3                            8,153        Not Available                Not Available
                                      Category: Middle-Error Profile
                     B4                                0        Not Applicable               Not Applicable
                     O                             8,303              $2,366                     $1,112
                     K                            66,534              $1,316                       $489
                     V5                                9        Not Available                Not Available
                     W                            59,139                $187                       $400
                                       Category: Low-Error Profile
                     A                            79,037                 $684                       $608




1
 SSA Office of Quality Performance, Supplemental Security Income Redeterminations Change Rate Study Fiscal
Year 2011, December 2011.
2
 Limited issues require the development of a specific issue or event but do not require a redetermination. SSA,
POMS, SI 02305.015 A.1. (October 14, 2011).
3
 We obtained the number of Profile S redeterminations from SSA’s Redetermination Volume Tracker, which does
not report improper payments. According to SSA, Profile S redeterminations are not an ongoing workload and there
are only a small number of such redeterminations remaining.
4
    SSA no longer selects Profile B redeterminations, which were categorized as MEP.
5
 We obtained the number of Profile V redeterminations from a data extract of the Supplemental Security Record.
According to SSA, less than 20 Profile V redeterminations are selected each year.



SSI High-error Profile Redeterminations (A-07-12-11263)                                                           C-1
            Profile Code                                      Average                  Average
                                    Number Completed
          (See Table B–2)                                  Overpayment               Underpayment
                        Limited Issues and Unscheduled Redeterminations
            Limited Issues                   231,947             $1,075                     $322
             Unscheduled                     544,563               $993                   $1,379
               Total 6                     2,456,254             $1,317                     $571




6
 According to SSA’s FY 2011 Performance and Accountability Report, SSA completed 2,456,830 redeterminations
and limited issues in FY 2011. We consider the difference immaterial.



SSI High-error Profile Redeterminations (A-07-12-11263)                                                C-2
Appendix D – IMPROPER PAYMENTS FROM COMPLETING
             ADDITIONAL PROFILE C REDETERMINATIONS
In Fiscal Year (FY) 2011, the Social Security Administration (SSA) completed almost
1.4 million Profile C redeterminations identified through its statistical profiling process (see
Appendix C). SSA reviewed a sample of the 1.4 million Profile C redeterminations and
estimated they resulted in an average overpayment of $1,614 and an average underpayment of
$288 (see Appendix C). 1 In addition, SSA selected almost 201,000 Profile C redeterminations
through its error profiling system that it did not complete in FY 2011 (see Table 1 in the
report). According to SSA, Profile C redeterminations are profiled and released for completion
based on the anticipated amount of overpayment. 2 Therefore, the average overpayment for the
additional 201,000 Profile C redeterminations would likely be lower than the average for the first
1.4 million Profile C redeterminations completed.

SSA estimated the average overpayment for the additional 201,000 Profile C redeterminations
would be $850. SSA based its estimate on a sample of all Supplemental Security Income (SSI)
recipients. In addition to the sample of profiled redeterminations, SSA selects a random sample
of all SSI recipients and conducts redeterminations on those recipients, regardless of whether
they met the error profiling criteria necessitating a redetermination. Using this figure, we
estimated SSA could have identified at least an additional $170.7 million in overpayments (see
Table D–1).

SSA would not have expected a significant difference in the average underpayment since
Profile C redeterminations are selected based on likelihood of overpayment and not
underpayment. Therefore, we assumed the average underpayment for the additional
201,000 Profile C redeterminations would remain consistent with the $288 average identified for
the first 1.4 million Profile C redeterminations completed. Using this figure, we estimated SSA
could have identified approximately $57.8 million in additional underpayments (see Table D–1).




1
 SSA selects a sample of redeterminations stratified by profile code to estimate the average overpayment and
underpayment identified by each type of redetermination and limited issue.
2
    SSA, POMS, SI 02305.013 A.1.a (June 14, 2010).



SSI High-error Profile Redeterminations (A-07-12-11263)                                                        D-1
                   Table D–1: Improper Payments Identified by Completing
                      Additional Profile C Redeterminations in FY 2011
            Number of Profile C Redeterminations (see Table 1
                                                                     200,847
            of the report)
            Average Overpayment                                         $850
            Additional Overpayments: Number of Profile C
                                                                 $170,719,950
            Redeterminations multiplied by Average Overpayment
            Average Underpayment                                        $288
            Additional Underpayments: Number of Profile C
            Redeterminations multiplied by Average                $57,843,936
            Underpayment
            Additional Improper Payments: Additional
                                                                 $228,563,886
            Overpayments plus Additional Underpayments




SSI High-error Profile Redeterminations (A-07-12-11263)                         D-2
           Appendix E – AGENCY COMMENTS




                                            SOCIAL SECURITY
MEMORANDUM


Date:      August 23, 2013                                                         Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Supplemental Security Income High Error Profile
           Redeterminations” (A-07-12-11263)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           SSI High-error Profile Redeterminations (A-07-12-11263)                                       E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME HIGH ERROR PROFILE
REDETERMINATIONS” (A-07-12-11263)


We would like to thank you for making changes to the report at the informal review stage. This
version of the report accurately describes our process for selecting and working High Error
Profile C Redeterminations.

Recommendation

Continue increasing the number of Profile C redeterminations completed each year as resources
allow.

Response

We agree that program integrity work, including Profile C redeterminations, is a priority for the
agency. However, the availability of increased dedicated funding is critical to implementing this
recommendation. Our Fiscal Year 2014 budget includes a proposal to provide a dependable
stream of mandatory funding for our key program integrity work. These additional resources
would allow us to process a high level of SSI redeterminations and continuing disability reviews.

We must remain focused on balancing our service and stewardship workloads. Currently, we are
struggling to keep up with incoming work and there are signs that service is deteriorating in
several areas, including office wait times for claimants without appointments; National 800-
Number calls answer and busy rates; extended appointment calendars; and disability claims
backlogs. We will continue to devote resources to handle incoming work while maintaining our
program integrity commitments.

We consider this recommendation closed for tracking purposes.




SSI High-error Profile Redeterminations (A-07-12-11263)                                       E-2
Appendix F – MAJOR CONTRIBUTORS
Mark Bailey, Director, Kansas City Audit Division

Tonya Eickman, Audit Manager

Joseph Cross, IT Specialist




SSI High-error Profile Redeterminations (A-07-12-11263)   F-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
